                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                                  November 14, 2012



MEMORANDUM TO:             Chairman Macfarlane



FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   RESULTS OF THE AUDIT OF THE UNITED STATES
                           NUCLEAR REGULATORY COMMISSION'S FINANCIAL
                           STATEMENTS FOR FISCAL YEARS 2012 and 2011
                           (OIG-13-A-04)


The Chief Financial Officers Act of 1990, as amended (CFO Act), requires the Inspector
General (IG) or an independent external auditor, as determined by the IG, to annually
audit the United States Nuclear Regulatory Commission’s (NRC) financial statements in
accordance with applicable standards. In compliance with this requirement, the Office
of the Inspector General (OIG) retained Clifton Gunderson, LLP, which merged with
another firm to become CliftonLarsonAllen, LLP (CLA), to conduct this annual audit.
Transmitted with this memorandum are the following CLA reports:

      Opinion on the Principal Statements.

      Opinion on Internal Control.

      Compliance with Laws and Regulations.

NRC’s Performance and Accountability Report includes comparative financial
statements for FY 2012 and FY 2011.

Objective of a Financial Statement Audit

The objective of a financial statement audit is to determine whether the audited entity’s
financial statements are free of material misstatement. An audit includes examining, on
a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and
significant estimates made by management as well as evaluating the overall financial
statement presentation.
CLA’s audit and examination were conducted in accordance with auditing standards
generally accepted in the United States of America; Government Auditing Standards
issued by the Comptroller General of the United States; attestation standards
established by the American Institute of Certified Public Accountants; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. The audit included, among other things, obtaining
an understanding of NRC and its operations, including internal control over financial
reporting; evaluating the design and operating effectiveness of internal control and
assessing risk; and testing relevant internal controls over financial reporting. Because
of inherent limitations in any internal control, misstatements due to error or fraud may
occur and not be detected. Also, projections of any evaluation of the internal control to
future periods are subject to the risk that the internal control may become inadequate
because of changes in conditions, or that the degree of compliance with the policies or
procedures may deteriorate.

FY 2012 Audit Results

The results are as follows:

       Financial Statements

              Unqualified opinion.

       Internal Controls

              Unqualified opinion.

       Compliance with Laws and Regulations

              No reportable instances of noncompliance/no substantial noncompliance
              noted.

Office of the Inspector General Oversight of CLA Performance

To fulfill our responsibilities under the CFO Act and related legislation for oversight of
the quality of the audit work performed, we monitored CLA’s audit of NRC’s FY 2012
financial statements by:

       Reviewing CLA’s audit approach and planning.

       Evaluating the qualifications and independence of CLA’s auditors.

       Monitoring audit progress at key points.

       Examining the working papers related to planning and performing the audit and
       assessing NRC’s internal controls.

       Reviewing CLA’s audit reports for compliance with Government Auditing
       Standards and OMB Bulletin No. 07-04, as amended.
      Coordinating the issuance of the audit reports.

      Performing other procedures deemed necessary.

CLA is responsible for the attached auditor’s report, dated November 8, 2012, and the
conclusions expressed therein. OIG is responsible for technical and administrative
oversight regarding the firm’s performance under the terms of the contract. Our
oversight, as differentiated from an audit in conformance with Government Auditing
Standards, was not intended to enable us to express, and accordingly we do not
express, an opinion on:

      NRC’s financial statements.

      The effectiveness of NRC’s internal control over financial reporting.

      NRC’s compliance with laws and regulations.

However, our monitoring review, as described above, disclosed no instances where
CLA did not comply, in all material respects, with applicable auditing standards.

Meeting with the Chief Financial Officer

At the exit conference on November 13, 2012, representatives of the Office of the Chief
Financial Officer, OIG, and CLA discussed the results of the audit.

Comments of the Chief Financial Officer

In his response, the Chief Financial Officer (CFO) agreed with the report. The full text
of the CFO’s response follows this report.

We appreciate NRC staff’s cooperation and continued interest in improving financial
management within NRC.

Attachment: As stated

cc:   Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      N. Mamish, OEDO
      K. Brock, OEDO
      C. Jaegers, OEDO
                                                                         CliftonLarsonAllen LLP
                                                                         www.cliftonlarsonallen.com




                             INDEPENDENT AUDITORS’ REPORT



Inspector General
United States Nuclear Regulatory Commission

Chairman
United States Nuclear Regulatory Commission

We have audited the accompanying balance sheets of the United States Nuclear Regulatory
Commission (NRC) as of September 30, 2012 and 2011, and the related statements of net cost,
changes in net position, and budgetary resources (“financial statements”) for the years then
ended. The objective of our audit was to express an opinion on the fairness of these financial
statements. In connection with our audit, we were also engaged to express an opinion on the
effectiveness of NRC’s internal control over financial reporting and considered NRC’s
compliance with laws and regulations. In our audit, we found:

       The financial statements are presented fairly, in all material respects, in conformity with
       accounting principles generally accepted in the United States of America (U.S.);
       NRC maintained, in all material respects, effective internal control over financial
       reporting including safeguarding of assets and compliance with laws and regulations;
       and
       No instances of reportable noncompliance with selected provisions of laws and
       regulations tested, including the requirements of the Federal Financial Management
       Improvement Act of 1996 (FFMIA).

The following sections discuss in more detail: (1) these conclusions; (2) Management’s
Discussion and Analysis (MD&A), required supplementary information, and other accompanying
information; (3) management’s responsibility for the financial statements; (4) our responsibility
for the audit; and (5) certain other matters.

Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of NRC as of September 30, 2012 and 2011, its net costs, changes in net
position, and budgetary resources for the years then ended in conformity with accounting
principles generally accepted in the U.S.




                                                 1
                   INDEPENDENT AUDITOR’S REPORT (Continued)

Opinion on Internal Control

In our opinion, the NRC maintained, in all material respects, effective control over financial
reporting including safeguarding of assets and compliance with laws and regulations as of
September 30, 2012, that provided reasonable assurance that misstatements, losses or
noncompliance material in relation to the financial statements would be prevented, or detected
and corrected, on a timely basis. Our opinion is based on criteria established under 31 U.S.C.
3512 (c) and (d) and the Federal Managers’ Financial Integrity Act (FMFIA).

Report on Compliance

In connection with our audit, we performed tests of NRC’s compliance with certain provisions of
laws and regulations. The results of our tests disclosed no instances of noncompliance that are
required to be reported in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States or OMB Bulletin 07-04, Audit Requirements for
Federal Financial Statements, as amended (OMB Bulletin 07-04). However, the objective of our
audit was not to provide an opinion on compliance with laws and regulations. Accordingly, we
do not express such an opinion.

Under FFMIA, we are required to report whether the financial management systems used by
NRC substantially comply with (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Standard General Ledger
(USSGL) at the transaction level. To meet this requirement, we performed tests of compliance
with FFMIA Section 803(a) requirements.

The objective of our audit was not to provide an opinion on NRC’s compliance with FFMIA.
Accordingly, we do not express such an opinion. However, our work disclosed no instances in
which NRC’s financial management systems did not substantially comply with (1) Federal
financial management systems requirements, (2) Federal accounting standards, or (3) the
USSGL at the transaction level.

Required Supplementary Information

Accounting principles generally accepted in the U.S. require that NRC’s Management
Discussion and Analysis (MD&A) and other required supplementary information be presented to
supplement the financial statements. Such information, although not a part of the financial
statements, is required by the Federal Accounting Standards Advisory Board, who considers it
to be an essential part of financial reporting for placing the financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited
procedures to the MD&A and required supplementary information in accordance with auditing
standards generally accepted in the U.S., which consisted of inquiries of management about the
methods of preparing the information and comparing the information for consistency with
management's responses to our inquiries, the financial statements, and other knowledge we
obtained during our audit of the financial statements. We do not express an opinion or provide
any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.




                                              2
                    INDEPENDENT AUDITOR’S REPORT (Continued)

Other Information

Other Accompanying Information in Chapters 2 and 4 (Program Performance and Other
Accompanying Information) of NRC’s Fiscal Year 2012 Performance and Accountability Report
is presented for purposes of additional analysis and is not a required part of the basic financial
statements. Such information has not been subjected to the auditing procedures applied in the
audit of the basic financial statements, and accordingly, we do not express an opinion or provide
any assurance on it.

Management’s Responsibility for the Financial Statements

An entity’s internal control over financial reporting is a process effected by those charged with
governance, management, and other personnel, the objectives of which are to provide
reasonable assurance that (1) transactions are properly recorded, processed, and summarized
to permit the preparation of financial statements in accordance with accounting principles
generally accepted in the U.S., and assets are safeguarded against loss from unauthorized
acquisition, use, or disposition; and (2) transactions are executed in accordance with laws and
regulations that could have a direct and material effect on the financial statements.

Management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the U.S.; (2) preparing and presenting other
information in documents containing the audited financial statements and auditor’s report, and
ensuring the consistency of that information with the audited financial statements; (3) designing,
implementing, and maintaining effective internal control over financial reporting, and evaluating
its effectiveness; (4) ensuring that NRC’s financial management systems substantially comply
with FFMIA requirements; and (5) complying with applicable laws and regulations. NRC
management evaluated the effectiveness of NRC’s internal control over financial reporting as of
September 30, 2012, based on criteria established under FMFIA.

Auditor’s Responsibility

We are responsible for conducting our audit in accordance with auditing standards generally
accepted in the U.S.; the standards applicable to the financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
07-04. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are presented fairly, in all material respects,
in conformity with accounting principles generally accepted in the U.S. We are also responsible
for: (1) obtaining a sufficient understanding of internal control over financial reporting and
compliance to plan the audit, (2) testing whether NRC’s financial management systems
substantially comply with the FFMIA requirements referred to above, (3) testing compliance with
selected provisions of laws and regulations that have a direct and material effect on the financial
statements and laws for which OMB Bulletin 07-04 requires testing, and (4) performing limited
procedures with respect to other information appearing in the Performance and Accountability
Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the appropriateness of the
accounting policies used and the reasonableness of significant estimates made by
management; (3) evaluated the overall presentation of the financial statements; (4) obtained an
understanding of NRC and its operations, including its internal control related to financial
reporting (including safeguarding of assets) and compliance with laws, regulations, contracts,


                                                 3
                      INDEPENDENT AUDITOR’S REPORT (Continued)

and grant agreements (including execution of transactions in accordance with budget authority);
(5) evaluated the effectiveness of the design of internal control; (6) tested the operating
effectiveness of relevant internal controls over financial reporting and compliance; (7)
considered the design of the process for evaluating and reporting on internal control and
financial management systems under FMFIA; (8) tested whether NRC’s financial management
systems substantially complied with the FFMIA requirements referred to above; and (9) tested
compliance with selected provisions of certain laws, regulations, contracts, and grant
agreements. The procedures selected depend on the auditors’ judgment, including our
assessment of risks of material misstatement of the financial statements, whether due to fraud
or error. We believe we obtained sufficient and appropriate audit evidence on which to base our
conclusions.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our audit results to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to NRC. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material
effect on the financial statements and those required by OMB Bulletin 07-04 that we deemed
applicable to NRC’s financial statements for the fiscal year ended September 30, 2012. We
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes.

Other Matters

We noted certain matters involving the NRC’s internal controls and its operation, which we have
reported to NRC management in a separate letter dated November 8, 2012.

Management’s response to our report is presented in Chapter 3 of NRC’s Fiscal Year 2012
Performance and Accountability Report. We did not audit NRC’s response and, accordingly, we
express no opinion on it.

This report is intended solely for the information and use of NRC’s management, NRC’s Office
of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be, and should not be, used by anyone other than these
specified parties.




Arlington, Virginia
November 8, 2012




                                                 4
